National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                  September 25, 2008

TO:                  Chief Financial Officer
                     Chief Information Officer
                     Deputy to Chief Information Officer
                     Director, Marshall Space Flight Center

FROM:                Assistant Inspector General for Auditing

SUBJECT:             Final Memorandum on NASA’s Development of the
                     Integrated Asset Management – Property, Plant, and
                     Equipment Module to Provide Identified Benefits
                     (Report No. IG-08-032; Assignment No. A-08-001-00)


The Office of Inspector General conducted an audit of NASA’s Integrated Asset
Management – Property, Plant, and Equipment (IAM/PP&E) module. A component of
NASA’s Integrated Enterprise Management Program (IEMP), the IAM/PP&E module is
an automated asset-management system that performs two main functions: equipment
management (logistics) and asset accounting (finance) and was designed to integrate
logistics and financial processes to account for and facilitate management of NASA
personal property.

Our overall objective was to determine whether NASA adequately defined the
IAM/PP&E module’s project requirements to achieve identified benefits and address
stakeholder needs. Specifically, we focused on determining whether NASA adequately
defined its project requirements to ensure that the module provided the following
benefits: (1) more accurate, timely valuation of PP&E; (2) improved valuation,
capitalization, and depreciation processes; (3) improved audit trail of capitalized 1 PP&E;
(4) standardization of NASA-held and contractor-held property management processes;
(5) elimination of manual processes; and (6) reduced operational costs. An additional
objective, initially, was to determine the status of the IAM/PP&E module project and
whether the project’s cost and schedule estimates were reasonable and reliable. The
IAM/PP&E module went live in May 2008, and the project’s actual costs were within the
total budget of approximately $30 million. Inasmuch as the project has been
implemented and was completed within budget, we make no further comment on the
schedule or budget in this memorandum.


1
    Capitalized assets identify property that has a value of $100,000 or more, a useful life of at least 2 years,
    and an alternative future use. If the asset is internal use software, the value must be $1 million or greater.
                                                                                         2


We conducted our audit at Marshall Space Flight Center and NASA Headquarters. (See
Enclosure for details on the audit’s scope and methodology.)

Executive Summary
We found that NASA adequately defined the IAM/PP&E module project requirements to
ensure the six benefits are achieved and that the achievement would be measurable. To
determine that the project requirements were adequately defined, we verified that the
requirements were crosswalked to each anticipated benefit; we verified that project
personnel had reviewed the Federal financial system requirements and could trace the
project requirements to the Federal requirements; and we reviewed the project’s
Performance Measurement Plan to verify that a performance measure could be tied to
each of the six identified benefits. We determined that the IAM/PP&E module, as
designed, and the corresponding changes in NASA’s business processes and controls
should help mitigate deficiencies reported as material weaknesses by Ernst and Young
(E&Y), the independent public accounting firm that conducted the audit of NASA’s
financial statements for the past 4 years.

We also found that, to help ensure that stakeholders’ needs were met, project
management incorporated stakeholders in the requirements development process.
Stakeholders identified and reviewed project requirements and, during system
development, helped determine whether each portion of the system would meet their
requirements. Stakeholders also participated in IAM/PP&E Steering Committee
meetings.

We note, however, that the system’s contribution to improved financial reporting may be
limited by inaccurate data. NASA did not validate approximately 6,300 records of
capital assets that have an acquisition value of $32 billion (and a net value of
approximately $18.6 billion) prior to transferring the data into IAM/PP&E. In addition,
NASA has not resolved an operating policy issue involving identifying purchases of
controlled equipment, which could bear on the successful operations of the system.
However, we did not conduct audit work to address the impact of these issues because
E&Y plans to perform tests of the IAM/PP&E module and NASA’s corresponding
manual controls as part of the fiscal year (FY) 2008 financial statement audit.
Accordingly, we made no recommendations for management action. We issued a draft of
this memorandum on September 17, 2008, and provided NASA management an opportunity
to comment on the draft, but comments were not required and no formal comments were
received.

Background
As part of its FY 2007 report on NASA’s financial statement, E&Y, in its “Report on
Internal Control,” dated November 13, 2007, identified significant deficiencies that it
considered to be material weaknesses under standards established by the American Institute
of Certified Public Accountants. E&Y identified material weaknesses in NASA’s controls
for financial systems, financial analyses, oversight used to prepare the financial
                                                                                                              3


statements, and processes for assuring that PP&E and materials are presented fairly in the
financial statements. In addition, E&Y stated that NASA’s financial management
systems are not substantially compliant with the Federal Financial Management
Improvement Act (FFMIA) of 1996, 2 noting that certain subsidiary systems, including all
property systems, are not integrated with NASA’s Systems Applications and Products
(SAP) Core Financial module. Core Financial—customized off-the-shelf software that
serves as the backbone to the IEMP—is used to record accounting transactions including
commitments, obligations, and expenditures and to produce NASA’s annual financial
statements.

NASA developed the IAM/PP&E module in part to address the material weaknesses
identified by E&Y. The module replaced the logistics legacy systems NASA Equipment
Management System (NEMS) and NASA Property Disposal Management System
(NPDMS) and the personal property records in NASA’s Contractor-Held Asset Tracking
System (CHATS). NEMS was a transaction-based system that linked every controlled
equipment item to a unique Equipment Control Number and provided NASA an Agency-
wide system to simplify, standardize, and reduce the cost of tracking and managing
equipment items. NPDMS provided NASA with an Agency-wide disposal management
tracking system to support operational requirements for the utilization, transfer, donation,
sale, or other disposal mechanism for idle NASA personal property. Through CHATS,
approximately 50 contractors holding the highest dollar value of NASA-owned,
contractor-held property are required to report the status of the property to the Chief
Financial Office’s Property Branch on a monthly basis (all others report status annually).
The IAM/PP&E module was designed to account for and facilitate management of
NASA- and contractor-held accountable personal property and capitalized personal
property (i.e., equipment, internal-use software, leased personal property, and work-in-
process assets). 3

Project managers reported that the total value of NASA’s accountable personal property
that the IAM/PP&E module manages includes all of the approximately $18.4 billion of
the net Space Exploration PP&E and $206 million of net General PP&E (out of a total of
$2.2 billion of General PP&E) reported in the NASA FY 2007 financial statements. The
IAM/PP&E module cost approximately $30 million.

For major Federal investments, such as the IAM/PP&E module, the Office of
Management and Budget (OMB) Circular No. A-11, “Preparation, Submission, and
Execution of the Budget,” requires Federal agencies to identify anticipated benefits of the
investment in Exhibit 300, “Capital Asset Plans and Business Cases,” to ensure that a
business case is made that can be tied to the agency’s mission statements, long-term
goals, and objectives. We focused our audit on determining whether NASA adequately

2
    FFMIA requires each Agency to implement systems that comply with Federal financial management
    system requirements, applicable Federal accounting standards, and the Standard General Ledger at the
    transaction level.
3
    The IAM/PP&E module does not include real property (land, buildings, other structures and facilities,
    leased property, leasehold improvements, and modifications to real property) or operating materials and
    supplies.
                                                                                                                  4


defined its project requirements to ensure the benefits listed in the Exhibit 300 are
achieved.

Project Requirements, Identified Benefits, and Stakeholder Input

We found that NASA adequately defined its project requirements to ensure anticipated,
measurable benefits would be achieved and that stakeholders’ input was incorporated in
the requirements development process. We reviewed the Exhibit 300s for the
IAM/PP&E module submitted in 2006 for budget year 2008 and in 2007 for budget year
2009 to determine the identified benefits. We verified that the logistics and financial
stakeholders participated in determining and approving requirements during the project’s
formulation and throughout its implementation.

Project Requirements

The IEMP identifies project requirements in terms of levels:
       •   Level I (guiding principles),
       •   Level II (functional drivers),
       •   Level III (high-level requirements),
       •   Level IV (detailed functional and technical requirements), and
       •   Level V (specific software implementation requirements) to define project
           requirements.

To determine that the project requirements were adequately defined, we verified that the
IAM/PP&E module project’s Level III requirements, which include the main features to
be delivered, were crosswalked to each of the anticipated benefits. We further verified
that the IAM/PP&E module project personnel had reviewed the Federal financial system
requirements in the Joint Financial Management Improvement Program (JFMIP) Systems
Requirements (SR) JFMIP-SR-00-4, “Property Management System Requirements,”
October 2000, and could trace Level IV project requirements, which are more descriptive
than the Level III high-level requirements, to the Federal requirements. We also
reviewed the IAM/PP&E module project’s Performance Measurement Plan to verify that
a performance measure could be tied to each of the six benefits identified in the
Exhibit 300s, 4 and all contribute to the two main functions of IAM/PP&E: equipment
management (logistics) and asset accounting (finance).

The logistics function is intended to allow equipment managers to record information about
each piece of NASA-owned or contractor-held equipment such as description, location,
cost, capital asset indicator, and Work Breakdown Structure (WBS) element. The WBS
element is developed by identifying the system or project end item, then successively
subdividing it and numbering each subsidiary work product or element. NASA Interim
Directive (NID) 9250-56, “Identifying Capital Assets and Capturing Their Costs,” November

4
    We did not assess the performance measurements and offer no opinion on the quality of those
    measurements. As E&Y will be testing and reviewing system compliance with the FFMIA in the
    financial statement audit, we did not test the project’s ability to, for example, transition transactions to the
    general ledger or system controls.
                                                                                           5


1, 2007, requires project managers to identify all capital assets with unique WBS elements.
The Directive requires anyone acquiring a capital asset, based on the definitions provided
in an Alternative Future Use Questionnaire, which is completed by project managers and
reviewed by property accountants, to create a separate WBS element in the system and flag
each WBS with a capital asset indicator. To assist logistics stakeholders with managing
equipment in the IAM/PP&E module, project staff developed N-PROP (NASA properties),
a Web-based portal for acceptance and custodial oversight of NASA property. Equipment
holders are notified by e-mail of actions they need to take to document individual pieces of
equipment. N-PROP provides easy access to property-related actions as well as basic
reports that provide visibility into all NASA property.

The finance function is intended to improve the financial management of capitalized
personal property, which will enhance the Agency’s ability to meet its financial reporting
requirements. The unique WBS elements allow the capital attribute to be easily tracked
through the system interface in Core Financial to the various other financial modules.
Use of unique WBS elements will make it possible to track activity associated with each
capital asset throughout its life cycle, capturing work-in-progress costs for capital assets
as they are being procured and fabricated. The improvements are expected to address
material weaknesses in NASA internal controls over PP&E that contributed to NASA
receiving a disclaimer of opinion on its financial statements.

Identified Benefits and Performance Indicators

In the Exhibit 300s submitted for the IAM/PP&E module, NASA identified the
anticipated benefits of the IAM/PP&E module as (1) more accurate, timely valuation of
PP&E; (2) improved valuation, capitalization, and depreciation processes; (3) improved
audit trail of capitalized PP&E; (4) standardization of NASA-held and contractor-held
property management processes; (5) elimination of manual processes; and (6) reduced
operational costs.

Valuation of PP&E. Prior to the implementation of the IAM/PP&E module,
accountable personal property was tracked in NEMS. Tracking required the monthly
transfer of data, manually, to the financial system, which was time-consuming and
resulted in inaccurate information being transferred to the financial system. The
IAM/PP&E module is expected to achieve accurate, timely valuation of PP&E through
integrating the logistics and financial systems. Level III requirements for the IAM/PP&E
module supporting this anticipated benefit include

   •   creating integrated processes for sharing operational and cost data;
   •   creating processes that integrate with Core Financial to establish and maintain
       capitalized personal property values contained in general ledger accounts for
       NASA-held equipment and for NASA-owned, contractor-held equipment; and
   •   establishing the capability to track and report work-in-progress costs, and upon
       completion of fabrication, moving the cost from work in progress to a final
       capitalized asset, if the capitalization criteria are met.
                                                                                               6


The performance measure associated with the anticipated benefit of accurate and timely
valuation is the percentage of NASA capital assets recorded in the system that have
completed entries for the capital asset indicator field. The goal is to increase the
percentage of new capital assets that have completed entries for this indicator as new
assets are acquired and identified. As capital assets that do not have completed entries
for the capital asset indicator field drop off at the end of their life cycle, the percentage of
capital assets with the indicator will increase.

Valuation, Capitalization, and Depreciation Processes. Prior to implementation of the
IAM/PP&E module, property accountants manually tracked the depreciable value of
capitalized equipment from reports in NEMS and CHATS using a spreadsheet. Property
accountants combined the depreciated total of all items on the spreadsheet and made one
journal voucher entry to the general ledger. This manual process of calculating
depreciation did not allow for tracking the depreciation of individual assets throughout
their life cycle.

The IAM/PP&E module is expected to allow for improved valuation, capitalization, and
depreciation processes through automated processes and related policy changes, such as
NID 9250-56. The IAM/PP&E module uses asset master records instead of a summary
of accounting records. These asset records allow property accountants to perform
automated depreciation calculations within the financial system and other asset-related
calculations at the individual asset level. The asset records serve as the property
subsidiary ledger to the Core Financial Standard General Ledger and allow for a full and
automated integration of the accounting and property systems. Level III requirements for
the IAM/PP&E module supporting this anticipated benefit include

    •   creating capitalized personal property records that establish and maintain original
        cost, original acquisition date, placed in service date, accumulated depreciation,
        and net book value; and
    •   establishing the capability to calculate, assign, and record depreciation cost to
        each capitalized item of personal property consistent with generally accepted
        accounting principles as identified by the Federal Accounting Standards Advisory
        Board (FASAB).

The performance measure associated with the anticipated benefit of improved valuation,
capitalization, and depreciation processes is the number of automated transactions in
Core Financial related to capital personal property assets. The goal is to reduce the
number of assets processed manually.

Audit Trail of Capitalized PP&E. Prior to the implementation of the IAM/PP&E
module, the depreciation of capitalized assets was combined and done through one
journal voucher entry. Information for individual depreciated items had to be manually
researched and retrieved. With the IAM/PP&E module in place, accountants are able to
see, at the individual asset level, out-years’ and current month’s depreciation. The
IAM/PP&E module is expected to also achieve this benefit through the processes
described under “Valuation of PP&E” and the “Valuation, Capitalization, and
Depreciation Processes.” Therefore, many of the same Level III requirements mentioned
                                                                                          7


previously apply to this anticipated benefit. An additional Level III requirement specific
to this anticipated benefit requires management of accountable personal property using
the mandatory requirements of the Federal Property Management Systems Requirements.

The performance measure associated with this anticipated benefit is a reduction in the
number of property-related recommendations in the independent auditor’s annual report
on NASA’s financial statements.

Property Management Processes. Standardization of the management of NASA- and
contractor-held property will result from the use of the WBS elements to track costs of
property acquisitions (fabrications and purchases) as described in NID 9250-56. Level
III requirements for the IAM/PP&E module supporting this anticipated benefit include

   •   providing access to data on a project’s WBS, with the capability to track costs
       (resources) against the WBS to support reengineered business processes for
       capitalized personal property;
   •   creating access to real-time information about the condition of accountable
       personal property, its location, value, and status; and
   •   providing real-time data concerning the condition and location of mission critical,
       accountable personal property.

The performance measure associated with this anticipated benefit calls for determining
the number of equipment master records synchronized with the capitalized records in
asset accounting. The goal is to increase the percentage of integrated records.

Manual Processes. Prior to implementation of the IAM/PP&E module, property
accountants manually recorded property and depreciation calculations in the general
ledger. The IAM/PP&E module is expected, through the integration of logistics and
financial systems, to eliminate manual processes such as recording journal voucher
entries, calculating depreciation of assets, and maintaining Excel spreadsheets. Also,
prior to IAM/PP&E implementation, only equipment managers could accept property
using NEMS and dispose of property using NPDMS. All other users completed paper
forms to document equipment logistics and did not have access to determine available
excess equipment, particularly in other Centers. With IAM/PP&E, end-users can accept
equipment electronically, and all NASA users will be able to search N-PROP for excess
equipment that is identified for property disposal. Level III requirements for the
IAM/PP&E module supporting this anticipated benefit include

   •   providing the capability to track and manage loans, leases, borrows, transfers, and
       cannibalizations of accountable personal property and
   •   providing accountable personal property users and owners the capability to
       readily access any data that they need and are authorized to have.

Several performance measures are listed in the Performance Measurement Plan related to
this anticipated benefit such as the number of automated transactions in Core Financial
related to capitalized personal property, the total number of users with access to N-PROP,
                                                                                          8


and the number of items from excess property transferred or reutilized with the
transactions made electronically. The goal is to increase the percentage of each
performance measure.

Operational Costs. Previously, NEMS and NPDMS were used to track equipment and
property disposal and neither was integrated with the financial system. Operational costs
are expected to be reduced as a result of decommissioning NEMS and NPDMS and
implementing the IAM/PP&E module and N-PROP. With N-PROP, NASA staff and
contractors can see and search excess property and equipment across all Centers for
reutilization and borrowing rather than purchasing. Logistics managers expect that the
IAM/PP&E module will result in operational cost savings by facilitating the reutilization
of equipment. Some of the Level III requirements associated with this benefit are

   •   providing internal screening of excess accountable personal property to increase
       reutilization across the Agency and
   •   establishing processes that promote inter-Center equipment transfers and loans
       and reduce unnecessary procurements.

The performance measure associated with this anticipated benefit is the number of legacy
systems replaced by the IAM/PP&E module and reutilization of excess property. The
goal is to increase the percentage of each performance measure, which should correlate to
cost reductions as legacy systems are decommissioned and excess property is identified
and reutilized.

Stakeholder Input

Stakeholders were included as part of the IAM/PP&E module formulation and
implementation. Stakeholders identified project requirements, reviewed requirements the
project team developed, and made a determination as to whether each portion of the
system developed would meet their requirements. Stakeholders also participated in
IAM/PP&E Steering Committee meetings. The IAM/PP&E Project Manager said
feedback from the users usually involved minor changes. The IAM/PP&E module
delivers a system that stakeholders see as a vast improvement over the legacy systems.

Other Issues
We identified two management issues that we believe, if resolved, would enhance the
functionality of the IAM/PP&E module and improve NASA’s property management and
property accounting. These issues concern validating migrated capital asset data and
identifying purchases as controlled equipment at the time they are ordered.

Unvalidated Balances Transferred. Approximately 6,300 records of capital asset data
with a gross cost of $32 billion (and a net value of approximately $18.6 billion) were
migrated to the new system without revalidating old property balances. These records
were previously maintained on Chief Financial Office Property Accounting Branch
spreadsheets. Though NASA did not validate the accuracy of the balances, the Agency
                                                                                                    9


plans to allow the capitalized items to “roll off” the books at the end of their depreciation
period. As these older assets are fully depreciated over time, new acquisitions will be
accounted for in the IAM/PP&E module under improved accounting practices. NASA’s
strategic focus is to have the newly acquired property values be correct. The Chief
Financial Officer, NASA Office of Inspector General, E&Y, and the Audit and Finance
Committee have all agreed on this approach after considering the cost-benefit of
validating the accuracy and completeness of the historical property values, but await
additional guidance from the FASAB. The FASAB task force developing
implementation guidance for Federal general PP&E will tackle the issue of how to
address and report balances for old, unauditable property at those agencies that have not
received unqualified opinions on their financial statement audits.

Inadequate Accounting for Controlled Equipment. In June 2007, the Government
Accountability Office (GAO) reported that NASA’s equipment management policy
allows employees to bypass the Agency’s central receiving function—which should serve
as the primary control point for receipt and acceptance—and does not limit the amount or
type of equipment purchases that may be sent directly to an end-user. GAO reported that
          for controlled equipment that NASA does not report on its financial statements, the
          system was not being designed with front-end controls that would identify or flag these
          purchases as equipment when the item is ordered. Instead, NASA relies on end-users to
          ensure that equipment is entered into the property management system after it has been
          received. 5

GAO recommended adoption of a standard business process supported by the software to
ensure that the new system would be capable of identifying purchases as controlled
equipment when ordered.

When we discussed the GAO report with IAM/PP&E Project managers and the logistics
stakeholder, they explained that GAO’s recommendation for controlled equipment goes
beyond the changes in accounting for capital assets called for in NID 9250-56 and was
outside the scope for the IAM/PP&E module during its implementation. The controlled
equipment recommendation required changes to business processes in more than the
logistics and financial functional areas, such as for equipment requisitioning and
procurement processes. Thus, NASA did not incorporate the GAO recommendation into
the IAM/PP&E module at the time of the current release. However, identifying
purchases as controlled equipment when ordered is an important control for ensuring that
the Agency’s equipment records are updated on receipt and acceptance of controlled
equipment.

Conclusion
If the IAM/PP&E module functions as designed, along with its corresponding changes in
business processes and controls, it should help to mitigate reported deficiencies with


5
    Government Accountability Office. “Property Management: Lack of Accountability and Weak Internal
    Controls Leave NASA Equipment Vulnerable to Loss, Theft, and Misuse” (GAO-07-432, June 25, 2007).
                                                                                        10


PP&E, which E&Y considered material weaknesses. This should allow for the fair
presentation of personal PP&E in future financial statements and demonstrate integration
into an automated financial system. We additionally believe that cost and schedule
estimates were reasonable and reliable. However, we note that the system’s contribution
to improved financial reporting may be limited because approximately 6,300 records of
migrated capital assets with a gross cost of $32 billion were not validated prior to their
transfer into the IAM/PP&E module. Also, issues related to identifying purchases as
controlled equipment when ordered remain unresolved.

We did not conduct audit work to address the impact of these issues because E&Y plans
to perform testing procedures over the IAM/PP&E module and NASA’s corresponding
manual controls as part of the FY 2008 financial statement audit.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Daniel R. Devlin, Human Capital and
Institutional Management Director, at 202-358-7249.


       /s/
Evelyn R. Klemstine

Enclosure
                             Scope and Methodology
We performed this audit from November 2007 through September 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Specifically we,

   •   Reviewed IAM/PP&E requirements in the project’s Business Case Analysis,
       scope documents, and OMB Exhibit 300s for budget years 2008 and 2009.
   •   Identified project requirements incorporated in the implementation through the
       IAM/PP&E module project’s Agile Scrum developmental Sprints.
   •   Verified that the project had performed a crosswalk of the project’s Level III
       requirements to the six benefits on the OMB Exhibit 300s for budget years 2008
       and 2009.
   •   Reviewed Office of Federal Financial Management (OFFM) system requirements
       as listed in the Federal Financial Systems Integration Office (FSIO) or JFMIP
       Property Management Systems Requirements.
   •   Verified the project’s crosswalk of Level IV requirements to the requirements of
       federal financial management systems maintained by OFFM.
   •   Held discussions with IAM/PP&E module project managers, and business process
       owners from both the logistics community and the Office of the Chief Financial
       Officer.
   •   Determined metrics for benefits of the project as listed on the OMB Exhibit 300s,
       and compared them with the metrics in the Performance Measurement Plan.
   •   Reviewed the relationship of the anticipated benefits with the Level III
       requirements for the IAM/PP&E module project.

Criteria

Federal Policy

   •   Federal financial system requirements in JFMIP-SR-00-4, “Property Management
       System Requirements,” October 2000. The property management system
       requirements are part of a series of publications entitled Federal Financial
       Management System Requirements (FFMSR). FFMSR specifies the mandatory
       functional and technical requirements that agency financial management systems
       must meet in order to be considered compliant with Federal standards as
       mandated by the FFMIA.

   •   OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,”
       July 2007, establishes policy for planning, budgeting, acquisition and
       management of Federal capital assets, and provides instruction on budget
       justification and reporting requirements for major information technology
       investments.

                                                                                   Enclosure
                                                                                  Page 1 of 4
   •   OMB Circular A-127, “Financial Management Systems,” December 1, 2004,
       requires Federal agencies to establish an integrated financial management system
       designed to provide complete, reliable, consistent, timely, and useful financial
       management information on operations to facilitate efficient and effective
       delivery of programs. The OMB Circular A-127 requires that Federal financial
       systems follow the requirements of the OFFM, which replaced the FSIO and the
       JFMIP. Requirements with the FSIO or JFMIP prefix remain applicable.

   •   OMB Circular A-136, “Financial Reporting Requirements,” revised June 29,
       2007, provides guidance on the data required for all Federal financial reporting. It
       requires that Federal agencies must generally prepare and submit audited financial
       statements to the OMB. Agencies are required to provide assurances related to
       the FFMIA. The FFMIA assurance statement should provide management's
       assessment of the organization's compliance with federal financial management
       systems requirements, standards promulgated by the FASAB, and the US
       Standard General Ledger at the transaction level.

NASA Policy

   •   NASA Interim Directive (NID) 9250-56, “Identifying Capital Assets and
       Capturing Their Costs,” November 1, 2007. This NID establishes NASA's
       procedural requirements for identifying when a PP&E purchase and/or fabrication
       meets the criteria for capitalization and for segregating the costs of the asset from
       other project costs so that assets can be properly recorded on NASA’s financial
       statements. This NID describes the process, roles, and responsibilities for identifying
       those PP&E that must be capitalized; establishing a WBS element to accumulate the
       PP&E’s costs; and reporting those costs.

   •   NASA Policy Directive (NPD) 4200.1B, “Equipment Management” (Revalidated
       January 23, 2006). This NPD establishes the financial control, accounting, and
       reporting requirements for Government-owned equipment, based on the value of
       the equipment and/or the sensitivity of the equipment. This NPD also mandated
       the use of the NASA Equipment Management System (NEMS), one of the legacy
       systems replaced by the IAM/PP&E module. NPD 4200.1B states that equipment
       includes all items of NASA personal property that are configured as mechanical,
       electrical, or electronic machines, tools, devices, and apparatuses that have a
       useful life of 2 years or more. Equipment valued at $100,000 or greater is subject
       to the financial control, accounting, and reporting requirements of NASA
       Financial Management Requirement (FMR) Volume 6, Chapter 4, Property, Plant
       and Equipment, November 2006. Equipment valued from $5,000 to $99,999 will
       be controlled but not subject to all the requirements of FMR Volume 6, Chapter 4.

   •   NPR 7120.5C, “NASA Program and Project Management Processes and
       Requirements,” March 22, 2005. NPR 7120.5C defines the management
       requirements for formulating, approving, implementing, and evaluating NASA
       programs and projects. These requirements include the responsibility of the
       Project Manager for providing defensible estimates of the project's life-cycle cost.

                                                                                         Enclosure
                                                                                        Page 2 of 4
   •   NASA FMR Volume 2 , “Financial Information Systems,” June 2006, gives the
       Chief Financial Officer the responsibility to review and approve the design
       requirements for the development and enhancement of NASA financial systems,
       monitor and evaluate the implementation of these systems, and function as the
       business process owner and decision maker for the use and management of NASA
       financial systems.

   •   NASA FMR Volume 6, Chapter 4, “Property, Plant and Equipment,” November
       2006 sets forth general principles, standards, policies, and procedures to assure
       compliance with statutory and regulatory requirements regarding NASA’s PP&E.
       These requirements ensure effective financial control over NASA-owned PP&E.

Computer-Processed Data. We did not rely on computer-processed data for this report.

Review of Internal Controls. We reviewed and evaluated the internal controls
associated with oversight structure in managing the IAM/PP&E module project. This
included an evaluation of polices, procedures and oversight activities of the IAM/PP&E
module Project Office to ensure they were in accordance with established requirements.
We did not find reportable internal control weaknesses.

Prior Coverage. During the last 5 years, the Government Accountability Office (GAO)
and the NASA Office of Inspector General have issued 17 reports of particular relevance
to the subject of this report. Unrestricted reports can be accessed over the Internet at
http://www.gao.gov (GAO) and
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html (NASA).

Government Accountability Office

“Financial Management - Long-standing Financial Systems Weaknesses Present a
Formidable Challenge” (GAO-07-914, August 3, 2007)

“Business Modernization: NASA Must Consider Agencywide Needs to Reap the Full
Benefits of Its Enterprise Management System Modernization Effort” (GAO-07-691, July
20, 2007)

“Property Management: Lack of Accountability and Weak Internal Controls Leave
NASA Equipment Vulnerable to Loss, Theft, and Misuse” (GAO-07-432, June 25, 2007)

“Business Modernization: Some Progress Made toward Implementing GAO
Recommendations Related to NASA's Integrated Financial Management Program”
(GAO-05-799R, September 9, 2005)

“Performance Budgeting: Efforts to Restructure Budgets to Better Align Resources with
Performance” (GAO-05-117SP, February 1, 2005)

“NASA: Lack of Disciplined Cost-Estimating Processes Hinders Effective Program
Management” (GAO-04-642, May 28, 2004)


                                                                                    Enclosure
                                                                                   Page 3 of 4
“Information Technology Management: Governmentwide Strategic Planning,
Performance Measurement, and Investment Management Can Be Further Improved”
(GAO-04-49, January 12, 2004)

“Business Modernization: Disciplined Processes Needed to Better Manage NASA's
Integrated Financial Management Program” (GAO-04-118, November 21, 2003)

“Business Modernization: NASA's Challenges in Managing Its Integrated Financial
Management Program” (GAO-04-255, November 21, 2003)

“Business Modernization: NASA's Integrated Financial Management Program Does Not
Fully Address Agency's External Reporting Issues” (GAO-04-151, November 21, 2003)

“Information Technology: Architecture Needed to Guide NASA's Financial Management
Modernization” (GAO-04-43, November 21, 2003)

“Business Modernization: Improvements Needed in Management of NASA's Integrated
Financial Management Program” (GAO-03-507, April 30, 2003)


National Aeronautics and Space Administration

“Audit of NASA's Fiscal Year 2007 Financial Statements” (IG-08-001, November 15,
2007)

“System Integration Testing of the Systems, Applications, and Products Version Update
Project Needed Improvement” (IG-07-031, September 28, 2007)

“Governance of the Systems, Applications, and Products Version Update Project Needed
Improvement” (IG-07-003, November 21, 2006)

“NASA’s FY 2006 Financial Statements” (IG-07-004, November 20, 2006)

“Final Memorandum on Audit of the Implementation of Integrated Financial
Management Program (IFMP) Audit Recommendations” (IG-05-008, February 1, 2005)




                                                                                   Enclosure
                                                                                  Page 4 of 4
